              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Business Management Information
System




DOE/IG-0572                                 November 2002
                   U. S. DEPARTMENT OF ENERGY
                         Washington, DC 20585

                            November 4, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Business Management
                         Information System"

BACKGROUND

The Department of Energy began development of an integrated, agency-wide business
information system in 1998. As originally conceived, the Business Management Information
System (BMIS) was to integrate a new core financial management system with other business
related systems, such as procurement and human resources, and eliminate a number of legacy
program-level business related systems.

Development of the core accounting system component of BMIS began in September 2000.
This component, known as Phoenix, was intended to replace the Department's primary
accounting, financial reporting, and funds distribution systems, and was to be interfaced with
financial and business systems of operating contractors, national laboratories, and power
marketing administrations. Life cycle implementation and production costs for the Phoenix
portion of BMIS were projected to be about $82 million. We initiated this audit to determine
whether the development of BMIS satisfied Federal and Department systems development
requirements and goals and was aligned with the Corporate Systems Information Architecture.

RESULTS OF AUDIT

At the time of our review, BMIS was unable to satisfy key Federal requirements and was not
aligned with the Department's corporate information technology architecture. Specifically, we
observed that program elements were developing separate systems that were not capable of full
integration with other business systems and that did not take full advantage of existing Phoenix
components. Also, BMIS did not incorporate all corporate-level development efforts and, as
noted in systems planning documentation, did not:

   •   Link performance and financial data, an element needed to satisfy Federal financial
       system requirements; and,
   •   Replace certain inefficient program and site-level financial management
       and managerial cost information systems.
                                           -2-


During the course of audit field work, the Director, Office of Management, Budget and
Evaluation/Chief Financial Officer (CFO) came to the conclusion that BMIS, as originally
scoped, would not fully satisfy current and future business system integration
requirements nor was it being developed in a manner consistent with the systems design
criteria in the President's Management Agenda. Accordingly, the CFO, in conjunction
with the Chief Information Officer: initiated an evaluation of the enterprise architecture
and BMIS; directed a "slow down" of work on the Phoenix project so that the evaluation
initiative could be completed; and, appointed an executive to lead the overall integration
effort. Subsequently, the Department, under the joint lead of the CFO and CIO, initiated
an entirely new system design proposal. These actions are a radical departure from the
initial BMIS/Phoenix effort and they include improved development activities. In our
judgment, depending upon the execution of the current effort, the Department's activities
have the potential of strengthening management and oversight authority, and significantly
helping the Department's efforts to complete a development plan aligned with an inclusive
enterprise architecture.

MANAGEMENT REACTION

Overall, management concurred with our recommendations and expressed its confidence
that its recent initiatives, when complete, should satisfy our audit recommendations.

Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
    Director, Office of Management, Budget and Evaluation/Chief Financial Officer
    Chief Information Officer
BUSINESS MANAGEMENT INFORMATION SYSTEM

TABLE OF
CONTENTS



               System Planning and Development Needs Improvement

               Details of Finding ....................................................................... 1

               Recommendations ..................................................................... 4

               Comments .................................................................................. 5



               Appendices

               1. Objective, Scope and Methodology ...................................... 6

               2. Prior Audit Reports ................................................................ 8

               3. Management Comments ..................................................... 12
System Planning and Development Needs Improvement
System Development   Federal laws and directives require that agencies maximize the value of
Requirements         information technology (IT) investments and that development projects
                     be closely monitored and aligned with an agency-wide IT architecture.
                     Agencies are specifically required to adopt a comprehensive approach
                     to acquiring and managing IT, with the Chief Information Officer (CIO)
                     monitoring all IT programs for performance and advising management
                     on whether to continue, modify, or terminate projects. Financial
                     decision-making for IT investments is to be linked to the agency's
                     strategic plans and its IT architecture. Moreover, agencies should
                     integrate relevant business-related functions when designing and
                     implementing new financial management systems. As new financial
                     systems are implemented, stand-alone, duplicative, or potentially
                     redundant ancillary or subsidiary systems are to be eliminated.

Development Issues   At the time of our audit, the Business Management Information System
                     (BMIS) development effort did not satisfy several of these key
                     requirements and was not aligned with the Department's Corporate
                     Systems Information Architecture. We found, for example, that:

                        •   The Department had not developed formal plans to replace
                            existing inefficient program and site-level budget formulation
                            systems. Various organizations maintain a number of such
                            systems that are paper intensive and not fully integrated with the
                            core accounting system. Based on information provided by
                            program management officials, we learned that the Phoenix
                            development effort would not have eliminated the need for these
                            systems. In fact, we learned that program officials planned to
                            continue maintaining 13 of 14 program-specific systems.

                        •   BMIS would not eliminate the need to maintain various
                            managerial cost distribution systems nor provide access to
                            transaction data at the contractor level. The Department had no
                            formal plans to integrate managerial cost reporting into BMIS.
                            Development of such information is essential to satisfying
                            certain Federal requirements regarding the matching of costs.
                            The Department currently uses an extensive manual process to
                            compile this information.

                        •   While the Department recognized that the replacement for its
                            out-of-date procurement system should be integrated with its
                            business information system, it had neither planned for nor
                            decided on the extent to which BMIS would achieve this goal.
                            Procurement system modernization planning efforts were
                            allowed to proceed on a separate track and had not been fully
                            coordinated with the ongoing Phoenix development.

Page 1                                                                    Details of Finding
                        •   The Department had not resolved how it would link financial
                            management data with performance information. Specifically,
                            no formal plans had been developed to ensure financial data to
                            be contained in Phoenix would ultimately be tied to
                            performance information in other BMIS modules.

                     With regard to linking performance and financial data, the Department
                     recognized that such linkage was necessary and is working to ensure
                     that Phoenix can accommodate the linkage at some future point.
                     Although a decision as to how integration will be achieved had not been
                     made at the time of our audit, we learned that the Department had
                     implemented an interim, stand-alone performance monitoring system.

                     During our audit, the Department also identified concerns about the
                     extent to which BMIS would satisfy key requirements and be aligned
                     with the information architecture. Accordingly, the Director, Office of
                     Management, Budget, and Evaluation/Chief Financial Officer (CFO)
                     initiated a series of actions to change the direction of the development
                     effort. These actions are discussed more fully on page 3 of this report.

Strategic Approach   Past BMIS development issues arose, in part, because the Department
                     had not developed a strategic approach for the project to guide
                     development efforts and prevent functional duplication. Specifically,
                     an overall management structure had not been clearly delineated to
                     champion development efforts and to ensure participation and support
                     by program offices and sites. In addition, the Department had not
                     prepared detailed performance measures to guide completion of the
                     project. As described below, we believe these additional components
                     are necessary to ensure a fully successful development project.

                                        Integration/Development Planning

                     A detailed strategic plan for BMIS that addressed integration and
                     implementation of key business system components such as
                     procurement was needed. Such a plan is a prerequisite for
                     implementing the Corporate Systems Information Architecture and
                     should assist in preventing functional duplication and redundancy in
                     Department-wide information systems. Management also had not
                     developed an overall master plan to guide development efforts and tie
                     various business related information systems into an overall corporate
                     business management information system.




Page 2                                                                    Details of Finding
                     Additionally, the Department had not prepared lifecycle-based plans for
                     security and contingency for BMIS. In particular, we noted that while
                     the Phoenix project had enabled certain vendor supplied security
                     features, it had not developed an overall cyber security plan. Also, a
                     contingency plan had not been developed for mitigating potential
                     implementation problems such as failure of the core accounting system.
                     As noted in prior audits of the Western Area Power Administration's
                     financial statements, the lack of well-developed contingency plans
                     could have potentially disastrous effects and could jeopardize the
                     Department's ability to prepare auditable financial statements.

                                               Performance Goals

                     We also noted that detailed performance measures to guide the overall
                     BMIS development effort had not been formulated. For example, the
                     Department's Annual Performance Plans lacked quantifiable or realistic
                     performance measures for monitoring BMIS implementation status or
                     ensuring development of a system that could better serve enterprise-
                     wide business management information needs. Plans contained
                     measures that applied only to Phoenix and called for system
                     implementation without specific goals to tie program and activity level
                     effort into an integrated development effort.

Changes in Project   During our audit, the CFO informed the Office of Inspector General
Direction            that he had reached similar conclusions about the BMIS effort and
                     undertaken a number of actions intended to address these issues. For
                     example, the CFO informed us that he had initiated an evaluation of the
                     enterprise architecture and BMIS, and had directed a slow down of
                     work on the Phoenix project pending the results of that evaluation. In
                     the meantime, the Department began planning efforts to replace
                     potentially duplicative systems. We also learned from officials within
                     the Office of the CFO that the Office of Procurement completed a
                     memorandum of agreement with the Phoenix project with the goal of
                     better integrating development efforts and in recognition of the need to
                     align with the current efforts.

                     In September 2002, the CFO formally announced that he had revised
                     the Department's approach to BMIS development. He also announced
                     that as part of this initiative, a single senior executive had been
                     appointed to serve as the focal point for all development efforts.




Page 3                                                                    Details of Finding
                   Additionally, a process was established for ensuring that the new
                   business system architecture would be responsive to user needs, thereby
                   reducing the need for redundant legacy systems. In fact, the CFO noted
                   that resources would not be committed to legacy systems that did not
                   support the overall plan. The executive that now heads development
                   also told us that he had recently completed a detailed plan, with
                   milestones and objectives, to facilitate management of the overall
                   effort. At the time our report was finalized, the CFO had not yet
                   reviewed the plan.

                   The Department's recent actions are encouraging. In our judgment, the
                   CFO's initiative is an excellent step toward correcting the problems that
                   have thus far hindered the BMIS development effort. We note,
                   however, that a successful development effort will require substantial
                   long-term commitment by senior management in all of the Department's
                   major program offices.

Use of Resources   Systems development on the scale contemplated by the Department is
                   technically complex and resource-intensive. The Phoenix component
                   alone is projected to have a lifecycle cost of $82 million, and total
                   BMIS costs would presumably be considerably more. Moreover, the
                   project's ultimate success will be judged in large measure by how well
                   the new system integrates the Department's major business information
                   needs and how well it enables decision-makers to link financial
                   information with performance data. A fully-developed strategic
                   approach and project-specific performance measures – along with the
                   enhancements already initiated by the CFO – should help the
                   Department ensure that its new business architecture is obtained as
                   cost-effectively as possible and that it achieves its expected outcomes.


RECOMMENDATIONS    The Director of Management, Budget and Evaluation/Chief Financial
                   Officer, in conjunction with the Chief Information Officer, should:

                      1. Finalize and implement a master plan, strategy, and/or program
                         enterprise architecture relating to corporate level business
                         information system development efforts that includes an
                         evaluation of capabilities to meet requirements and other
                         functionality such as procurement, budget and performance
                         measurement; and,

                      2. Establish specific, quantifiable, and realistic performance
                         measures or goals to be applied immediately, and ultimately
                         included in the Department's Annual Performance Plan to guide
                         the BMIS development effort.
Page 4
                                                                      Recommendations
MANAGEMENT REACTION   Management concurred with our recommendations and made a number
                      of technical comments that have been reflected in the report. The text
                      of management's comments is included as Appendix 3.




Page 5                                                                           Comments
Appendix 1
OBJECTIVE     To determine whether the development of BMIS was aligned with the
              Corporate Systems Information Architecture and will satisfy Federal
              and Department systems development requirements and goals.


SCOPE         The audit was performed at Departmental Headquarters between
              October 2001 and August 2002. In accordance with our objective, we
              evaluated whether the Department's development of BMIS will satisfy
              IT architecture, Federal and Department requirements, and Department
              goals.


METHODOLOGY   To accomplish our objectives, we:

               •   Reviewed Federal Regulations such as the Clinger-Cohen Act,
                   Government Performance and Results Act (GPRA), OMB
                   Circulars, Departmental Orders, Notices, and guidance pertaining
                   to IT security, acquisition, development, and operation.

               •   Reviewed relevant reports issued by the Office of Inspector
                   General and the General Accounting Office.

               •   Reviewed Department budget requests, performance agreements
                   and plans for compliance with GPRA.

               •   Reviewed the Department of Energy – Information Architecture
                   Project – DOE Corporate Systems Information Architecture and
                   related appendices.

               •   Reviewed the task order, the statement of work, invoices,
                   development plans, and procedures and practices relating to BMIS
                   development.

               •   Held discussions with officials and staff in ME, CIO, and various
                   program and operational offices.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed internal controls regarding the development and acquisition of




Page 6                                        Objective, Scope, and Methodology
         information systems. Because our review was limited, it would not
         necessarily have disclosed all internal control deficiencies that may
         have existed at the time of our audit. We did not rely on computer-
         processed data to accomplish our audit objective.

         We held an exit conference with cognizant Department Headquarters
         officials on October 11, 2002.




Page 7                                    Objective, Scope, and Methodology
Appendix 2
                     PRIOR OFFICE OF INSPECTOR GENERAL REPORTS



     •   The U.S. Department of Energy's Procurement and Assistance Data System, (DOE/IG-
         0436, January 1999). The Department's Procurement and Assistance Data System
         (PADS) did not meet user needs or comply with generally accepted system practices. It
         was not easy to use and did not provide needed information to managers. An attempt to
         redesign PADS had failed earlier due to inept contractors, lack of user involvement in the
         planning process, and was not part of an overall architecture systems development
         approach.

     •   Commercial Off-the-Shelf Software Acquisition Framework, (DOE/IG-0463, March
         2000). The Department had not developed and implemented software standards or
         effectively used enterprise-wide contracts, key components of a COTS acquisition
         framework. Departmental offices (Federal and contractor) acquired application and
         operating system software that varied in type and price, and duplicated procurement
         efforts by awarding and managing multiple contracts for the same product. Many offices
         purchased software over and above normal operational requirements to ensure that data
         could be exchanged between locations.

     •   Facilities Information Management System, (DOE/IG-0468, April 2000). The purpose of
         the Facilities Information Management System (FIMS) was to provide Departmental
         management with access to up-to-date, reliable real property information and to assist in
         real property decision making. FIMS was inaccurate and incomplete. Real property
         existed at some sites that had not been entered in FIMS, while in other instances recorded
         property could not be located. In addition, some supplemental data needed to help
         manage and report on the Department's real property had not been entered in the system.
         This occurred because many field sites maintained their own site-specific real property
         systems and did not use FIMS to manage property. Further, the Headquarters
         organization with oversight responsibility for FIMS did not have the authority to require
         field sites to maintain and use the FIMS database.

     •   Corporate and Stand-Alone Information Systems Development, (DOE/IG-0485,
         September 2000). Duplicative and/or redundant computer systems exist or are under
         development at virtually all organization levels within the Department. Despite efforts to
         implement several corporate-level applications, many organizations continued to invest in
         custom or site-specific development efforts that duplicated corporate functionality.
         Programs, sites, and contractors had also developed a number of administrative and
         programmatic information systems that duplicate the functionality of systems in use by
         other Departmental elements.




Page 8                                                                               Prior Audit Reports
Appendix 2 (Continued)

     •   Report on the Department of Energy's Consolidated Financial Statements (DOE/IG-FS-
         01-01, February 2001). The Department's financial statements for Fiscal Year 2000
         received an unqualified audit opinion. However, reportable conditions were found in the
         system of internal controls over financial reporting that could adversely affect the
         Department's ability to record, process, summarize and report financial data. The
         conditions related to performance measurement reporting, financial management at the
         Western Area Power Administration (Western), and unclassified information system
         security. For instance, some goals were not meaningful or relevant, or stated in objective
         or quantifiable terms and cost effectiveness data relating to performance was not
         presented, except for the total net costs of each business line. Also, weaknesses and
         vulnerabilities were noted in security planning and the means to re-establish computer
         functions in the event a disaster occurs. Furthermore, Western's system did not generate
         timely, useful reports that contained complete and accurate financial information and thus
         was unable to accurately track and report on budget execution and meet external reporting
         requirements, including the preparation of financial statements. During implementation,
         Western did not run new and old financial systems in parallel and did not adequately plan,
         test and document the new system. Weaknesses continue to exist at Western in such areas
         as the lack of formalized plans or procedures for disaster recovery.

     •   The U.S. Department of Energy's Corporate Human Resource Information System, (DOE/
         IG-0494, February 2001). Despite a number of operational improvements, the
         Department's Corporate Human Resource Information System (CHRIS) had not satisfied
         all Federal and Departmental requirements and had not met certain Departmental goals
         and objectives. For example, system development activities, such as the evaluation of
         selected commercial-off-the-shelf products and tracking of development and
         implementation costs were inadequate or had not been completed. Departmental goals to
         re-engineer certain human resource processes and eliminate redundant systems had also
         not been satisfied. CHRIS development and implementation efforts have been adversely
         affected because the Department did not adhere to project planning requirements and best
         practices for system development projects.

     •   Performance Measures at the Department of Energy, (DOE/IG-0504, May 2001). The
         Department has made progress in implementing the Government Performance Results Act
         of 1993. It has issued a comprehensive performance and accountability report for three
         consecutive years with the established goals designed to define the level of performance
         to be achieved by each program. However, the report points out problems with the
         usefulness and completeness of the performance measures and the validity and accuracy
         of some of the results reported. Specifically, several measures were not objective or
         quantifiable; critical measures relating to some of the Department's major challenge areas
         were not present; and performance results reported for the selected measures were not
         always accurate and valid.




Page 9                                                                               Prior Audit Reports
Appendix 2 (Continued)

    •     The Department of Energy's Implementation of the Clinger-Cohen Act of 1996, (DOE/
          IG-0507, June 2001). While the Department had taken action to address certain
          information technology (IT) related management problems, it had not been completely
          successful in implementing the requirements of the Clinger-Cohen Act of 1996. The
          Department had not satisfied major requirements of the Act to develop and implement an
          integrated, enterprise-wide IT architecture, closely monitor policy implementation efforts,
          and acquire IT-related assets in an effective and efficient manner. Factors, such as a
          decentralized approach to IT management, the organization placement of the Chief
          Information Officer, and the lack of an IT baseline, may have contributed to these problems
          and impacted the Department's ability to satisfy Clinger-Cohen requirements.

    •     Integrated Planning, Accountability, and Budgeting System-Information System, (DOE/
          IG-0509, June 2001). The Department's Integrated Planning, Accountability, and
          Budgeting System-Information System (IPABS-IS) was not integrated into the
          Department's Corporate Systems Information Architecture and did not fully satisfy
          Department goals and meets users' information needs. Despite prior attempts at developing
          and operating a corporate-level information system solution, the Department did not
          integrate this system's development into its IT architecture project. As a consequence, there
          were project management and security weaknesses in the development and operation of
          IPABS-IS that impacted its ability to satisfy Department goals and meet user information
          needs.

    •     The Department's Unclassified Cyber Security Program, (DOE/IG-0519, August 2001).
          The Government Information Security Reform Act (GISRA) codifies existing policies and
          regulations and reiterates security responsibilities outlined in the Computer Security Act of
          1987 and the Clinger-Cohen Act of 1996. While the Department had made improvements
          in its unclassified cyber security program, the program did not adequately protect data and
          information systems as required by GISRA. Specifically, problems existed with security
          program planning and management, risk management, contingency planning, computer
          incident reporting, and training management. Configuration management or access control
          problems also existed at many of the 24 sites evaluated.

    •     Inspection of Cyber Security Standards for Sensitive Personal Information, (DOE/IG-0531,
          November 2001). The Department did not always meet the requirements prohibiting
          unauthorized disclosure of Privacy Act/Freedom of Information Act (FOIA) personal
          information addressed in the Privacy Act of 1974, the Freedom of Information Act, and the
          Computer Security Act of 1987. The Department did not have Department-wide baseline
          criteria for protecting Privacy Act/FOIA personal information; did not group Privacy Act/
          FOIA personal information with other unclassified sensitive information for protection; and
          allows individual sites and program offices to develop differing security measures for
          protection of Privacy Act/FOIA personal information.




Page 10                                                                                 Prior Audit Reports
Appendix 2 (Continued)

     •    Telecommunications Infrastructure (DOE/IG-0537, December 2001). The Department
          had not effectively consolidated or optimized significant segments of its
          telecommunications infrastructure. Duplicative data transmission infrastructures existed
          across the complex, and the Department had not optimized the acquisition of Internet and
          video services. A number of sites utilized open market sources to acquire Internet service
          that could have been provided from existing capacity.

     •    Management Challenges at the Department of Energy (DOE/IG-0583, December 2001).
          The Department continues to experience difficulties in managing some of its major
          projects. For the most part, the Department's prime contractors manage these projects.
          Cost overruns, schedule delays, and undesirable scope reductions have been recurring
          problems. The Department has not satisfied major requirements of the Clinger-Cohen Act
          of 1996 to develop and implement an integrated, enterprise-wide IT architecture, closely
          monitor policy implementation efforts, and acquire IT related assets in an effective and
          efficient manner. The Department has made some progress toward the use of
          performance information for program management. However, additional work needs to
          be done to ensure that the Department has the metrics in place, and uses them to manage
          its programs and activities effectively.




Page 11                                                                               Prior Audit Reports
Appendix 3




Page 12      Management Comments
Appendix 3 (Continued)




Page 13                  Management Comments
Appendix 3 (Continued)




Page 14                  Management Comments
                                                                              IG Report No.: DOE/IG-0572

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
